WAIVER
Supreme Court of the United States
No. 19-505

William Rupert
(Petitioner)

Susan Bond, et al.
(Respondents)

v.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Edward S. Zusman
Markun Zusman & Compton, LLP
Xi I am a member of the Bar of the Supreme Court of the United States.
0

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature
Date: November 18, 2019

(Type or print) Name Kevin K. Eng
)1 Mr.
0 Ms.

0 Mrs.

-

0 Miss

Firm Markun Zusman Freniere & Compton LLP
Address 465 California Street, Suite 401
City & State San Francisco, California

.Zip 94104

Phone 415-438-4571
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: William Rupert
P.O. Box 66403
Scotts Valley, California 95067-6403

RECEIVED
NOV 2 6 2019
FFICE OF THE CLERK
OUPREME
COURT, U.S.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

